September 17, 2008

MICHAEL J. DALEY
VICE PRESIDENT, PACIFIC AREA OPERATIONS

SUBJECT: Audit Report – Mojave Post Office Facility Consolidation
         (Report Number EN-AR-08-006)

This report presents the results of our audit of the Mojave, California, Post Office (PO)
consolidation (Project Number 08XG021EN000). Our objectives were to determine why
mail was not routed according to the approved Area Mail Processing (AMP)
consolidation proposal, to assess transportation changes associated with the
consolidation, and to determine why service performance was adversely affected. We
conducted this review at the request of the Senior Vice President, Operations, and in
cooperation with U.S. Postal Service officials. Click here to go to Appendix A for
additional information about this audit.

Conclusion

Our review concluded the following.

    •    The Mojave PO’s outgoing mail1 volume was not routed to the Bakersfield
         Processing and Distribution Center (P&DC) according to the approved AMP
         because collection box pick-up times were not changed to reflect the AMP,
         resulting in a late mail arrival profile.2 The Bakersfield P&DC could not process
         the increased mail volume in a timely manner because of this late mail arrival
         profile.

    •    Transportation changes to highway contract routes (HCR) were neither
         accurately reported nor consistent with the AMP. When Mojave PO employees
         processed HCR changes in the eBuy Service Change Request System3
         (WebSCR), additional changes superseded the initial changes. Therefore,
         Mojave PO staff stopped entering the changes in the system.


1
  Outgoing mail is sorted within a mail processing facility and dispatched to another facility for additional processing
or delivery.
2
  The mail arrival profile is the time the mail is received for processing. It is used to determine operational startups
and staffing levels.
3
  HCR data is initially entered as a request into the WebSCR database. It then is routed through several levels of
approval. Once approved, it is entered into the Transportation Contract Support System (TCSS) database.
Mojave Post Office Facility Consolidation                                                          EN-AR-08-006



      •    The Mojave PO’s service standard for mail destined for Bakersfield, Fresno, and
           Mojave, California, was not met when outgoing mail was routed to the Santa
           Clarita P&DC for processing. This occurred because the service standard for
           mail processed at the Santa Clarita P&DC was 2 days rather than overnight.

Mail Volume Transfer

The Mojave PO’s outgoing mail was processed at the Santa Clarita P&DC instead of
the Bakersfield P&DC, as approved in the AMP. There were multiple causes including:

      •    Pick-up times for collection boxes were not changed according to the AMP.

      •    The Bakersfield P&DC could not process the increased mail volume because of
           the late mail arrival profile.

      •    The Bakersfield P&DC experienced a high turnover among plant managers.

As a result, stakeholder confidence in network realignment initiatives may be
jeopardized by deviations from the approved AMP. Click here to go to Appendix B for
our detailed analysis of this issue.

The approved AMP has been implemented; therefore, we are not making a
recommendation on this issue. Further, the new Handbook PO-4084 addresses
deviations from the AMP, and training has been provided to ensure compliance with the
new handbook. In addition, a permanent plant manager started work at the Bakersfield
P&DC in March 2008.

Transportation

Changes in HCRs were neither accurately reported nor consistent with the Mojave AMP
or post-implementation reviews (PIR).

When Mojave PO employees processed changes in the WebSCR system, additional
changes superseded the initial changes. Therefore, Mojave PO staff stopped entering
changes in the system. We also found that both PIRs5 reported transportation changes
that did not appear in the TCSS reports.

As a result, Pacific Area and headquarters managers could not properly oversee
transportation changes and costs. In addition, senior managers could not be assured
that the Sierra Coastal Performance Cluster Manager was accountable for
implementing approved AMP-related transportation changes. Click here to go to
Appendix B for our detailed analysis of this issue.

4
    Handbook PO-408, Area Mail Processing Guidelines, March 2008.
5
    The first two PIRs, dated February 5 and October 2, 2007, were not approved by headquarters.



                                                          2
Mojave Post Office Facility Consolidation                                                            EN-AR-08-006




Service Standards and Service Performance

The AMP goal for maintaining First-Class Mail® (FCM) service was not met.
Specifically, the standard for overnight mail service from the Mojave PO to Bakersfield,
Fresno, and Mojave, California, was downgraded to 2-day service.

This occurred because the service standard for mail processed at the Santa Clarita
P&DC was 2 days to Bakersfield, Fresno, and Mojave, California. We were not able to
review service performance for the Mojave PO and Bakersfield P&DC before and after
the AMP because the Postal Service could not provide Origin-Destination Information
System6 (ODIS) data for the period January 1 to April 15, 2006.

As a result, the Postal Service did not achieve its objective of implementing the Mojave
AMP without FCM service downgrades. During the period January 2006 through
August 2007, service standards were downgraded for six ZIP Code™ pairs and
upgraded for 22 pairs. Click here to go to Appendix B for our detailed analysis of this
issue.

The Postal Service implemented the approved AMP on August 20, 2007, and service
performance for Bakersfield P&DC has improved significantly. Therefore, we are not
making a recommendation on this issue.


We recommend the Vice President, Pacific Area Operations:

1. Strengthen accounting controls over highway contract routes by providing training
   for input of data in the WebSCR system along with additional management
   oversight.

2. Ensure transportation changes directed by the approved area mail processing
   consolidation proposal are accurately recorded in the post-implementation review.

Management’s Comments

Management agreed with our recommendations and plans to provide training to Mojave
PO and Pacific Area staff by October 1, 2008. Additionally, management plans to
update the annual PIR with the finalized actual contracted transportation costs.
Management also provided clarifying information for various issues in the report. We
have included management’s comments, in their entirety, in Appendix E.




6
    The ODIS provides information on revenue, volume, and weight. It also measures productivity and workload.



                                                          3
Mojave Post Office Facility Consolidation                                    EN-AR-08-006



Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and the corrective actions should
resolve the issues identified in the report. The OIG considers recommendations 1 and 2
significant, therefore, they require OIG concurrence before closure. Consequently, the
OIG requests written confirmation when management completes the corrective actions.
The recommendations should not be closed in the follow-up tracking system until the
OIG provides written confirmation that they can be closed. In addition, where
appropriate we incorporated management’s suggestions to clarify the report.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Michael A. Magalski, Director,
Network Optimization, or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachment

cc: Patrick R. Donahoe
    William P. Galligan, Jr.
    Anthony M. Pajunas
    David E. Williams, Jr.
    Kerry L. Wolney
    Katherine S. Banks




                                            4
Mojave Post Office Facility Consolidation                                                                                    EN-AR-08-006



                                                APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service operates in a challenging business environment because of
declining FCM volume, increasing competition with traditional mail products from the
private sector, increasing automation and mail processing by mailers, and shifting
population demographics. To address these challenges, the Postal Service continually
seeks opportunities to streamline operations, reduce costs, increase operational
effectiveness, and improve service. Despite an increase in mail volume during fiscal
year (FY) 2005, the aggregate volume of FCM declined by 6.3 percent (6.5 billion
pieces) from FYs 2002 to 2007. In addition, the Postal Service projects that FCM
volume will continue to decline. Figure 1 shows these trends.

                                                              FIRST-CLASS ACTUAL (2002 - 2007) AND
                                                              PROJECTED (2008 - 2012) MAIL VOLUME

                                   110




                                   105




                                   100
              Pieces In Billions




                                    95




                                    90




                                    85




                                    80
                                         2002   2003   2004     2005     2006       2007       2008   2009   2010   2011   2012
                                                                                Fiscal Years




In addition, eCommerce and electronic messaging are slowly replacing personal
paper-based correspondence and will continue to influence the volume of single-piece
FCM. As FCM volume declines, the total number of mailpieces delivered to each
address could decline as well.

The Postal Service’s strategic objectives are defined in its Strategic Transformation
Plan,7 which states that the agency is committed to improving its operational efficiency
by consolidating mail processing operations when feasible. In addition, the President’s


7
    Strategic Transformation Plan, 2006-2010, Annual Progress Report, December 2006.



                                                                                5
Mojave Post Office Facility Consolidation                                                              EN-AR-08-006



Commission8 found the Postal Service had more facilities than needed and
recommended optimizing the facility network by closing and consolidating unneeded
processing centers. The Postal Accountability and Enhancement Act9 (Postal Act of
2006) further encourages the Postal Service to continue streamlining its processing and
distribution network to eliminate excess costs.

Handbook PO-408 provides a framework for consolidating operations in the mail
processing network and performing PIRs. Issued in April 1995, these guidelines state
that consolidations should improve operational efficiency and service, make optimum
use of available resources, and ensure management’s accountability for consolidating
operations. The Postal Service issued a revised version of the AMP guidelines in
March 2008.

The Postal Service uses the AMP process to consolidate mail processing functions and
to eliminate excess capacity, increase efficiency, and make better use of resources.
The Postal Service defines AMP as:

           . . .the consolidation of all originating and/or destinating distribution
           operations from one or more post offices into another automated or
           mechanized facility to improve operational efficiency and/or service.

The Bakersfield P&DC, Santa Clarita P&DC, and Mojave PO are part of the Sierra
Coastal Performance Cluster in the Pacific Area. The performance cluster is
approximately 43,820 square miles in size. In January 2006, management initially
consolidated a majority of the originating mail from the Mojave PO to the Santa Clarita
P&DC. In August 2007, mail processing was realigned and all mail originating at the
Mojave PO was sent to the Bakersfield P&DC for processing, according to the approved
AMP. The AMP proposal was for the 3-digit ZIP Code 935.

In an August 2007 memorandum, the Senior Vice President, Operations, expressed
concerns about the implementation of the Mojave AMP and requested that the OIG
review it because there appeared to be material deviations between the approved AMP
submitted by the Pacific Area and the changes actually implemented.

The approved AMP stated that all mail originating from the Mojave PO was to be
consolidated into the Bakersfield P&DC. The first PIR reported that 75 percent of the
outgoing mail, approximately 104,012 pieces daily, was transferred to the Santa Clarita
P&DC for processing rather than to the Bakersfield P&DC, as stated in the approved
AMP. This deviation affected overnight service to Bakersfield, Fresno, and Mojave,
California, for collection mail originating at the Mojave PO.




8
    The President’s Commission on the United States Postal Service reported its findings on July 31, 2003.
9
    Postal Accountability and Enhancement Act, Public Law 109-435, dated December 20, 2006.



                                                            6
Mojave Post Office Facility Consolidation                                                       EN-AR-08-006



Additionally, transportation trips were not added to meet service standards, as planned.
PLANET® Code seeding10 tests conducted by the Pacific Area showed that routing the
Mojave PO’s mail to the Santa Clarita P&DC caused a downgrade in service
performance. As a result, the Pacific Area realigned all the mail back to the Bakersfield
P&DC for processing as of August 2007.

The Postal Act of 2006 requires the Postal Service to establish a facilities plan, which
must include information on cost-saving network realignment initiatives. Specifically,
the law requires the Postal Service to submit an annual report to Congress on how its
decisions have affected or will affect network rationalization plans. The report must
include actions taken to reduce excess capacity within the network and the overall
estimated costs and cost savings.

OBJECTIVES, SCOPE, AND METHODOLOGY

This report focuses on the Mojave PO consolidation. Our objectives were to determine
why mail was not routed according to the approved AMP consolidation proposal, to
assess transportation changes associated with the consolidation, and to determine why
service performance was adversely affected. We reviewed applicable guidelines and
documents, including Handbook PO-408, the Mojave AMP, and the corresponding
PIRs. We also conducted interviews with plant, performance cluster, area, and
headquarters personnel.

We did not validate all costs, savings, or service performance associated with the
consolidation of originating mail processing operations from the Mojave PO to the
Bakersfield P&DC. We were unable to review and compare the impacts on service
performance before and after the AMP because the Mojave PO is not an External First-
Class measurement11 (EXFC) site and ODIS data was not available for January 1 to
April 15, 2006 (pre-AMP data).

This AMP proposal for consolidating mail processing operations was submitted to
Postal Service Headquarters for approval and implementation in FY 2006, and our data
analysis focused on the same time frames management used. We relied on data
obtained from the Enterprise Data Warehouse, the 24-hour clock indicators, and the
Service Standard Directory. We did not audit these systems, but performed a limited
review of data integrity to support our reliance on the data. See Appendix C for a
timeline of events in the consolidation.

We conducted this performance audit from January through September 2008 in
accordance with generally accepted government auditing standards and included such

10
   A PLANET (Postal Alpha-Numeric Encoding Technology) Code is a 12-digit barcode. The Postal Service’s
barcode sorting equipment reads the barcode and makes mail processing information (such as when and where the
mail was processed) available. PLANET Codes applied to selected mailpieces can help track the path of the
mailpiece.
11
   EXFC is a measurement system used by Postal Service to measure FCM service performance.



                                                      7
Mojave Post Office Facility Consolidation                                        EN-AR-08-006



tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. We discussed our observations
and conclusions with management officials on July 16, 2008, and included their
comments where appropriate.

PRIOR AUDIT COVERAGE

As indicated below, in the last 3 years, we have issued three reports that addressed
AMP policies. Management addressed prior OIG audit recommendations in revisions to
AMP policy.

                                        Final
                       Report
 Report Title                          Report                Report Results
                       Number
                                        Date
Marysville     EN-AR-08-              4/16/08   The Sacramento District manager did not
Processing and 003                              route mail volume in accordance with the
Distribution                                    approved AMP because of service
Facility                                        performance issues at the Sacramento
Consolidation                                   P&DC. Additionally, the rerouted mail and
                                                service impacts were not reported in the
                                                PIRs and the AMP.
Review of the        EN-MA-08- 10/19/07         The Postal Service’s revisions to AMP
Automated            001                        guidance have resulted in significant
Area Mail                                       improvements. However, the report
Processing                                      discussed concerns with the planned
Worksheets                                      methods of calculating potential workhour
                                                and transportation savings and other
                                                disclosure items, including communications,
                                                service, performance indicators, and
                                                supervisory ratios.
Area Mail            NO-AR-06- 12/21/05         The AMP process was fundamentally
Processing           001                        sound, appeared credible, and provided a
Guidelines                                      PIR process that assessed results from mail
                                                processing consolidations. However, AMPs
                                                were not processed or approved in a timely
                                                manner, PIRs were not always conducted,
                                                and stakeholders’ resistance affected the
                                                approval process.




                                                8
Mojave Post Office Facility Consolidation                                  EN-AR-08-006



                              APPENDIX B: DETAILED ANALYSIS

Mail Volume Transfer

Mail volume was not routed in accordance with the approved AMP. Specifically, 75 to
100 percent of the consolidated mail, approximately 104,000 to 139,000 pieces daily,
was processed at the Santa Clarita P&DC instead of the Bakersfield P&DC during the
period January 2006 to August 2007. See Appendix C for a timeline of events in the
consolidation.

This occurred because:

    •   Collection times for some of the collection boxes in the Sierra Coastal
        Performance Cluster were not changed according to the AMP. See Appendix D
        for a map of the Sierra Coastal Performance Cluster showing where the
        collection boxes are located.

    •   The Bakersfield P&DC could not process the increased mail volume in
        combination with the late mail arrival profile.

    •   The Bakersfield P&DC experienced a high turnover among plant managers. The
        Bakersfield P&DC has had 22 plant managers in the last 5 years.

These deviations from the approved AMP may jeopardize stakeholder confidence in
network realignment initiatives in the Sierra Coastal Performance Cluster. The AMP
has since been implemented as initially approved. Collection box pick-up times were
changed in April 2007, and all Mojave PO outgoing mail was realigned to the
Bakersfield P&DC as of August 2007.

Transportation

Transportation HCR changes were neither accurately reported nor consistent with the
Mojave AMP or PIRs. Specifically, the first two PIRs submitted to Postal Service
Headquarters, dated February 5 and October 2, 2007, stated that in order to maintain
service commitments to customers in the 935 ZIP Codes, the Sierra Coastal
Performance Cluster would add transportation trips. However, a review of the TCSS
reports by headquarters managers showed that these trips were not added.

This occurred because numerous transportation changes took place during the period
January 2006 through August 2007 and the additional changes superseded the initial
changes. The Mojave PO staff initially submitted HCR changes for approval and input
into TCSS. Eventually, the Mojave PO staff stopped submitting changes. See Table 1
for a list of transportation route changes and the number of days between each event.




                                            9
 Mojave Post Office Facility Consolidation                                              EN-AR-08-006



                     Table 1. Mojave PO Route Changes for Outgoing Mail

                                                                                          Number of
  Date                                            Event
                                                                                            days
1-9-06       75 percent of Mojave PO outgoing mail moved to Santa Clarita P&DC and 25
                                                                                               -
             percent to Bakersfield P&DC for processing
4-16-06      Mojave AMP implementation date                                                    -
5-8-06       90 percent of Mojave PO outgoing mail moved to Santa Clarita P&DC and 10         22
             percent to Bakersfield P&DC
6-30-06      100 percent of Mojave PO outgoing FCM moved to Bakersfield P&DC                  53
7-10-06      100 percent of Mojave PO outgoing FCM moved to Santa Clarita P&DC                10
8-8-06       100 percent of Mojave PO FCM and 75 percent of Mojave PO priority mail           29
             moved to Santa Clarita P&DC
9-14-06      100 percent of all Mojave PO outgoing mail moved to Santa Clarita P&DC           37
8-20-07      Realignment – 100 percent of Mojave PO outgoing mail volume moved to             340
             Bakersfield P&DC

 As a result, area and headquarters managers did not have accurate data with which to
 oversee transportation changes and costs. Additionally, Pacific Area and headquarters
 personnel did not have assurance that the Sierra Coastal Performance Cluster Manager
 was accountable for implementing AMP-related transportation changes.

 Service Standards and Service Performance

 Mojave service standards were not met when mail was routed to the Santa Clarita
 P&DC for processing. Specifically, overnight mail service from the Mojave PO to
 Bakersfield, Fresno, and Mojave, California, was downgraded from overnight to 2-day
 service. Table 2 below shows the ZIP Codes that received downgraded service
 standards.

                  Table 2. Changes to Service Standards for Mojave PO Mail
                            Processed at the Santa Clarita P&DC

                     Destination
                                        Destination Name      Change in Service
                      ZIP Code
                         932         Bakersfield, CA              Downgrade
                         933         Bakersfield, CA              Downgrade
                         935         Mojave, CA                   Downgrade
                         936         Fresno, CA                   Downgrade
                         937         Fresno, CA                   Downgrade
                         938         Fresno, CA                   Downgrade
                                    TOTAL                            6


 This occurred because the standard for mail processed at the Santa Clarita P&DC was
 2-day service to Bakersfield, Fresno, and Mojave, California. Chart 1 shows service



                                                       10
Mojave Post Office Facility Consolidation                                                                       EN-AR-08-006



standard changes that occurred when the mail was routed to the Santa Clarita P&DC
for processing.


                                   Chart 1. Service Impacts to Mojave Originating Mail
                                                                                                    LEGEND
                                                           Overnight                      Pre-AMP
                                     Fresno
                                                                                          Deviations from AMP
                                                                                          Corrected AMP

                                       Overnight




                                                   Bakersfield           Overnight
        2-day



                                                                                                    Mojave
                    Overnight


                                                             2-day
                                                                                                                 2-day




                                                                               Santa Clarita




We were unable to review and compare the impacts on service performance before and
after the AMP because Mojave is not an EXFC site and pre-AMP data was not available
from ODIS. Performance clusters will be able to measure service performance more
accurately when the Postal Service implements the Intelligent Mail Barcode.12

Because Mojave PO’s overnight service standards were not met, the Postal Service did
not achieve its objective of implementing the Mojave AMP without FCM service
downgrades during the period January 2006 through August 2007. In fact, service
standards were downgraded for six ZIP Code pairs and upgraded for 22 pairs.




12
  The Intelligent Mail Barcode will be used to sort and track letters and flats. It contains 20 digits of tracking data and
up to 11 digits of ZIP Code information. It is scheduled for implementation in May 2009.



                                                             11
Mojave Post Office Facility Consolidation                                                                                                                                              EN-AR-08-006



                               APPENDIX C: MOJAVE POST OFFICE CONSOLIDATION/REALIGNMENT TIMELINE



                                          Mojave Post Office Outgoing Mail Consolidation into Bakersfield P&DC
                                North/South
                                 Split - 25%                                                                                                                                  Collection Box                                 Memo from Area -
          AMP                                                   AMP                                All FCM & 75%         Memo from                         Original PIR1                         Memo from
                                 Bakersfield                                        All FCM to                                                                                Mail Changes                                         AMP
      approved by                                          Implementat-                            Priority mail to       SVP* with                           dated                             SVP to Amend
                               and 75% Santa                                        Bakerfield                                                                                 took effect                                   implementated as
           HQ                                                    ion                                 Bakersfied           concerns                         Feb. 5, 2007                              AMP
                                   Clarita                                         Jun. 30, 2006                                                                               Apr. 7, 2007                                      approved
      Oct. 17, 2005                                         Apr. 16, 2006                           Aug. 8, 2006         Aug. 9, 2006                                                            Jun. 20, 2007
                                Jan. 9, 2006                                                                                                                                                                                   Sep. 25, 2007




    Oct-05   Nov-05   Dec-05   Jan-06   Feb-06   Mar-06   Apr-06   May-06    Jun-06     Jul-06     Aug-06    Sep-06    Oct-06   Nov-06   Dec-06   Jan-07   Feb-07    Mar-07   Apr-07   May-07   Jun-07    Jul-07   Aug-07 Sep-07      Oct-07



                                                                                                                                                                                                                                 `
                                                                    North/South
                                                                                                              All AMP mail                                                                                            All AMP Mail    Original PIR2
                                                                     Split - 10%          All FCM to            to Santa                                                                                             to Bakersfield      dated
                                                                     Bakersfield        Santa Clarita             Clarita                                                                                            Aug. 20, 2007    Oct. 2, 2007
                                                                   and 90% Santa         Jul. 10, 2006        Sep. 14, 2006
                                                                       Clarita
                                                                    May 8, 2006




                                                                                                                        12

* SVP = Senior Vice President, Operations
Mojave Post Office Facility Consolidation                      EN-AR-08-006



              APPENDIX D: SIERRA COASTAL PERFORMANCE CLUSTER




           LEGEND

    Locations with Collection
    Box Time Changes

    Bakersfield P&DC

    Mojave Post Office

    Santa Clarita P&DC




                                            13
Mojave Post Office Facility Consolidation                   EN-AR-08-006



                        APPENDIX E: MANAGEMENT’S COMMENTS




                                            14
Mojave Post Office Facility Consolidation        EN-AR-08-006




                                            15
